Audit Report




OIG-11-022
Management Letter for Fiscal Year 2010 Audit of the
Federal Financing Bank’s Financial Statements


November 12, 2010




Office of
Inspector General
Department of the Treasury
This report has been reviewed for public dissemination by the Office of
Counsel to the Inspector General. Information on pages 2 and 3 requiring
protection from public dissemination has been redacted from this report in
accordance with Exemption 2 of the Freedom of Information Act,
5 U.S.C. Section 552.
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 12, 2010


            MEMORANDUM FOR GARY BURNER, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2010 Audit of the
                                  Federal Financing Bank’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Year 2010 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2010, and for the year then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses matters involving internal control over financial
            reporting and its operation that were identified during the audit but were not
            required to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at
            (202) 927-5407.

            Attachment
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




November 10, 2010


Inspector General, U.S. Department of the Treasury, and
  the Board of Directors, Federal Financing Bank:

In planning and performing our audit of the Federal Financing Bank’s (the Bank) financial statements as of
and for the year ended September 30, 2010, in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
considered the Bank’s internal control over financial reporting (internal control) as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the financial statements but not for
the purpose of expressing an opinion on the effectiveness of the Bank’s internal control. Accordingly, we
do not express an opinion on the effectiveness of the Bank’s internal control.
During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies and are summarized in Exhibit I. We also provide in Exhibit II the status of the
comment and recommendations included in our letter arising from the fiscal year 2009 audit.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and, therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Bank gained during our work to make comments and suggestions
that we hope will be useful to you.

This communication is intended solely for the information and use of the Bank’s management, the U.S.
Department of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, the
Office of Management and Budget, and the U.S. Congress, and is not intended to be, and should not be,
used by anyone other than these specified parties.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                                             Exhibit I

                                  Federal Financing Bank
                               Comments and Recommendations
                                       September 30, 2010



1.   Unsuccessful Login Attempts

     The Bank’s financial system does not lock user accounts after three unsuccessful user logon
     attempts in a            period, as required by the U.S. Department of the Treasury’s (Treasury)
     Departmental Offices (DO) 910, Information Technology Security Policy Handbook. If user
     accounts are not locked after a set number of failed logon attempts, unauthorized users may make
     repeated logon attempts to potentially gain unauthorized access.

     Recommendation

     We recommend that the Bank modify the financial system security configuration to lock user
     accounts in accordance with Treasury information technology policy after three failed logon
     attempts.

     Management’s Response

     Management concurs with the finding and recommendation. Management indicated that they will
     configure the financial system to temporarily lock out users after failed logon attempts in fiscal
     year 2011. An email notification of the lock out will be automatically provided to appropriate
     Bank personnel. We did not audit management’s response, and, accordingly, we express no
     opinion on it.




                                                 2
                                                                                             Exhibit I



2.   Password Policy

     The Bank’s financial system was not properly configured to check password expirations and
     force users to change passwords every             in accordance with the Bank’s password policy.
     During our testing, we noted that two of the thirty users tested had not changed their password in
     over          . Improper password configuration increases the risk for an unauthorized user to
     gain access to the system, which could compromise data integrity.

     Recommendation

     We recommend that Bank management conduct either manual or automated monthly reviews of
     user accounts and disable user accounts that have not changed their passwords within sixty days.

     Management’s Response

     Management concurs with the finding and recommendation. Management indicated that they will
     implement a process to monitor the changing of passwords in fiscal year 2011. We did not audit
     management’s response, and, accordingly, we express no opinion on it.




                                                 3
                                                                                          Exhibit II

                                        Federal Financing Bank
                                     Status of Prior Year Comment
                                          September 30, 2010



              Prior Year Comment                                    Current Year Status

1. Interest Credits on the Cushion of Credit          This comment has been corrected.
   Accounts




                                                  4
